HHS/OIG, Audit -"Audit of the Medicaid Drug Rebate Program in the State of Mississippi,"(A-04-03-06015)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of the Medicaid Drug Rebate Program in the State of Mississippi," (A-04-03-06015)
July 21, 2003
Complete
Text of Report is available in PDF format (161 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to evaluate whether the Mississippi
Division of Medicaid had established adequate accountability and internal controls over the Medicaid drug rebate program.  The
audit covered Medicaid drug rebates through June 30, 2002.  The review showed that the Mississippi Division of Medicaid
generally followed adequate accounting procedures and had sufficient controls over the drug rebate program as required
by Federal rules and regulations.